SafterY             Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration



                     PBS Did Not Follow Internal Guidance for
                     Congressional Notification and Violated
                     Competition Requirements When
                     Supplementing Funding of Recovery
                     Act Projects
                     Report Number A120111/P/R/R14001
                     March 17, 2014




          A120111/P/R/R14001
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration


                                   REPORT ABSTRACT
OBJECTIVE                   PBS Did Not Follow Internal Guidance for Congressional Notification
 Our objective was to       and Violated Competition Requirements When Supplementing
 determine whether the      Funding of Recovery Act Projects
 Public Buildings Service   Report Number A120111/P/R/R14001
 (PBS) supplemented the     March 17, 2014
 funding of the American
 Recovery and               WHAT WE FOUND
 Reinvestment Act of        We identified the following during our audit:
 2009 (Recovery Act)
 projects with non-         Finding 1 – PBS supplemented Recovery Act projects with non-
 Recovery Act funds. If     Recovery Act funds without notifying Congress.
 so, determine if the
 funds were used in         Finding 2 – PBS awarded Recovery Act contract modifications in
 compliance with            violation of competition requirements.
 applicable laws,
 regulations, and
 policies.                  WHAT WE RECOMMEND
                            Based on our audit findings, we recommend that the PBS
                            Commissioner:
                               1. Notify Congress of the use of Minor Repairs and Alterations
                                  funds to supplement Recovery Act projects.
                               2. Perform an internal review to identify Recovery Act projects that
                                  were supplemented with non-Recovery Act funds without
                                  Congressional notification. Notify Congress of any additional
                                  projects with supplemental funding.
                               3. Ensure that changes outside the scope of the contract are
                                  handled in accordance with Federal Acquisition Regulation Part
                                  6.

                            MANAGEMENT COMMENTS
Real Property Audit         The PBS Commissioner concurred with the recommendations.
Office (JA-R)               Management’s written comments to the draft report are included as
1800 F Street, NW           Appendix C.
Room 5215
Washington, DC 20405
(202) 219-0088


     A120111/P/R/R14001                       i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            March 17, 2014
 TO:              Norman S. Dong
                  Commissioner
                  Public Buildings Service (P)

 FROM:            Susan P. Hall
                  Audit Manager
                  Real Property Audit Office (JA-R)
 SUBJECT:         PBS Did Not Follow Internal Guidance for Congressional Notification
                  and Violated Competition Requirements When Supplementing
                  Funding of Recovery Act Projects
                  Report Number A120111/P/R/R14001

This report presents the results of our audit entitled PBS Did Not Follow Internal
Guidance for Congressional Notification and Violated Competition Requirements When
Supplementing Funding of Recovery Act Projects. Our findings and recommendations
are summarized in the Report Abstract. Instructions regarding the audit resolution
process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix C of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Susan P. Hall         Audit Manager           susan.hall@gsaig.gov           202 501-2073

Jeffrey W. Funk       Auditor-In-Charge       jeffrey.funk@gsaig.gov         202 501-1908

Maria R. Aburto       Management Analyst maria.aburto@gsaig.gov              202 219-1520

Gregory S. Kepner     Auditor                 gregory.kepner@gsaig.gov       202 273-4999

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120111/P/R/R14001                      ii
Table of Contents
Introduction .............................................................................................................. 1

Results

Finding 1 – PBS supplemented Recovery Act projects with non-Recovery Act funds
            without notifying Congress ...................................................................... 2

Recommendation 1 .................................................................................................... 3

Management Comments ............................................................................................ 3

Recommendation 2 .................................................................................................... 3

Management Comments ............................................................................................ 3

Finding 2 – PBS awarded Recovery Act contract modifications in violation of
            competition requirements ........................................................................ 3

Recommendation 3 .................................................................................................... 5

Management Comments ............................................................................................ 5


Conclusion................................................................................................................ 6

Appendixes

Appendix A – Purpose, Scope, and Methodology ............................................. A-1

Appendix B – Additional Finding 1 Modifications ............................................. B-1

Appendix C – Management Comments .............................................................. C-1

Appendix D – Report Distribution ....................................................................... D-1




A120111/P/R/R14001                                        iii
Introduction
The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided the
General Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund.
In accordance with the Recovery Act, the GSA Public Buildings Service (PBS) is using
the funds to convert federal buildings into High-Performance Green Buildings, as well as
to construct federal buildings, courthouses, and land ports of entry.

The GSA Office of Inspector General (OIG) is conducting oversight of the projects
funded by the Recovery Act. As a part of this effort, the OIG reviewed modernization
projects funded by the Recovery Act for instances where PBS supplemented said
projects with non-Recovery Act funding. These projects consisted of full and partial
building modernizations that included the replacement of mechanical, electrical, and
plumbing systems; fire and life safety systems; interior and exterior finishes, etc. This
report documents reportable conditions in the Northeast and Caribbean, Mid-Atlantic,
Great Lakes, Rocky Mountain, and Pacific Rim Regions.

The objective of our audit was to determine whether PBS supplemented the funding of
Recovery Act projects with non-Recovery Act funds. If so, determine if the funds were
used in compliance with applicable laws, regulations, and policies.

See Appendix A – Purpose, Scope, and Methodology for additional details.




A120111/P/R/R14001                      1
Results
Finding 1 – PBS supplemented Recovery Act projects with non-Recovery Act
funds without notifying Congress.

PBS did not follow its internal guidance to notify Congress when it supplemented
Recovery Act projects with non-Recovery Act Minor Repairs and Alterations (Minor
R&A) funds.

Minor R&A funds, 1 part of PBS’s Capital Program, are generally used to fund projects
below the prospectus limit. 2 They are necessary to keep GSA’s building inventory in a
proper state of repair to protect the building’s value, contribute to its income-producing
potential, and ensure the continuity of client missions. If the funds are used for another
purpose, Congress should be notified.

As part of its Recovery Act implementation, PBS issued “Guidance on use of BA54
funds on ARRA (Recovery Act) projects” to clarify how Minor R&A funds could be used
in combination with Recovery Act funding. This policy states that “if the BA03 funding
exceeds the prospectus threshold and BA54 funding is also planned for the same
scope, Congressional notification is also recommended.” 3 Therefore, PBS should have
notified Congress of the Recovery Act projects that used Minor R&A funds for the same
scope as recommended by this policy. However, PBS supplemented Recovery Act
funds with Minor R&A funds on several prospectus-level projects without reporting it to
Congress. Below are three examples: 4

    •   The John C. Kluczynski Federal Building and U.S. Loop Post Office Facility
        project included modification PS17 for $950,000 in Minor R&A funds. The work
        was primarily for fire proofing repairs and fire stopping perimeter columns. When
        the contractor opened the walls to perform its work, it determined that the fire
        proofing was in need of repairs to meet building code. This work was an
        unforeseen site condition of the Recovery Act project.

    •   The New Custom House Federal Office Building, modification PS08, used $2.6
        million in Minor R&A funds for historical improvements.                The historical
        improvements included the addition of first floor transoms, higher ceilings in the
        public areas, historical lighting, and lay-in light fixtures. Since the Recovery Act
        scope of work included upgrades to lighting and historic preservation, this
        modification is considered within the scope of the project.



1
  Minor R&A funds use Budget Activity (BA) 54.
2
  The prospectus limit is the dollar threshold ($2.79 million for fiscal year 2013) above which a project
requires Congressional approval.
3
  BA03 is a Recovery Act (also referred to as ARRA) Budget Activity fund code for High-Performance
Green Buildings (Modernization and Limited Scope) projects.
4
  Additional projects and modifications are discussed in Appendix B.


A120111/P/R/R14001                             2
   •   The Richard H. Poff Federal Building modernization project used $875,000 in
       Minor R&A funds, via modification PC13, for a unified fire alarm system. The
       Recovery Act project’s FedBizOpps contract synopsis and Project Management
       Plan cited the fire alarm system.         Cost estimates prepared by the
       Architect/Engineer and Construction Manager as Agent also included the fire
       alarm system under Construction Option 3. Therefore, the fire alarm system was
       within the scope of the project.

PBS regional officials informed us that they did not notify Congress about the use of
Minor R&A funds on these projects because they did not believe such notification was
required.

While we do not question the legitimacy of the work performed on the Recovery Act
projects using Minor R&A funds, the use of these funds lacks transparency with regard
to the actual cost of the projects as well as how PBS is using its Minor R&A funds.
Further, by using these funds to supplement Recovery Act projects, PBS reduces the
funding available for its normal improvement, maintenance, and repair of its building
inventory.

Recommendation 1

The PBS Commissioner should notify Congress of the use of Minor Repairs and
Alterations funds to supplement Recovery Act projects.

Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendation (See Appendix C).

Recommendation 2

The PBS Commissioner should perform an internal review to identify Recovery Act
projects that were supplemented with non-Recovery Act funding without Congressional
notification. Additionally, the PBS Commissioner should notify Congress of any
additional projects with supplemental funding.

Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendation (See Appendix C).

Finding 2 – PBS awarded Recovery Act contract modifications in violation of
competition requirements.

PBS’s modifications for child care center renovations at the Cesar E. Chavez Memorial
Building (Chavez) violated competition requirements.          The Federal Acquisition



A120111/P/R/R14001                    3
Regulation (FAR) allows changes that are “within the general scope of the contract.”
The Chavez Recovery Act project’s general scope included a parking garage
replacement; first and second floor renovations; elevator and lobby upgrades; swing
space; building skin replacement; ceiling replacement; roof and penthouse
improvements; condenser and chilled water, mechanical, electrical, and plumbing, and
Leadership in Energy and Environmental Design upgrades; photovoltaic panels; and
Recovery Act performance upgrades. According to the request for proposals, the “first
and second floor renovation” included some design and construction work for the child
care center. However, the child care center work associated with the Chavez Recovery
Act contract was limited to external work (e.g., emergency exit, replacement of building
skin).

The subsequent contract modifications involved a complete redesign of the interior of
the existing 3,260 square foot child care center, and the addition of 2,250 square feet
“to provide additional space for proper circulation, play and quiet area, and staff areas.”
The modifications increased the type and nature of the work and could not have been
reasonably anticipated by the offerors. As such, the modifications are outside the scope
of the contract and the contracting officer had no authority to order the work under FAR
52.243-4 Changes. 5

The award of the child care center modifications to the Recovery Act contractor does
not meet the requirements of FAR 6.3 – Other than Full and Open Competition. FAR
6.3 contains several requirements for procurements not conducted through full and
open competition. Prior to starting negotiations for a sole source contract, contracting
officers must justify the action in writing and obtain proper approval.

FAR 6.303 requires that each justification include sufficient facts and rationale. The
FAR lists 12 requirements in every sole source justification, including, but not limited to:
identification of the statutory authority permitting other than full and open competition
(i.e., the “other than full and open” circumstances listed in FAR 6.302), a demonstration
that the proposed contractor has unique qualifications, a description of efforts made to
ensure that offers are solicited from as many potential sources as practical, and a
determination that the anticipated cost will be fair and reasonable.

The Chavez contract file had limited information concerning the sole source justification.
PBS failed to cite the statutory authority permitting “other than full and open”
competition for the child care center renovation project. Rather, the contract file
contained a memorandum indicating it was in the best interest of the Government to
award the child care center renovation project to the modernization contractor to
eliminate any conflicts that may be encountered if there were multiple contractors
working in the same area. It also stated that the contractor was already mobilized and
PBS would realize savings by not paying additional overhead and mobilization fees.

5
 FAR 52.243-4 Changes states “the Contracting Officer may, at any time, without notice to the sureties, if
any, by written order designated or indicated to be a change order, make changes in the work within the
general scope of the contract.” Thus, if the work is not within the general scope of the contract, the
contracting officer does not have authority under the Changes clause to make changes.


A120111/P/R/R14001                              4
Although the contract file documented the contracting officer’s fair and reasonable price
determination, it did not address the other factors/information required under FAR
6.303. The project team informed us that a sole source justification was not completed.

Additionally, the award of the child care center renovation modifications lacked the
proper approvals. Approval authority varies as the value of the contract increases.
According to FAR 6.304(a)(1), the contracting officer may not approve sole source
awards exceeding $650,000. For a proposed contract over $650,000, but not
exceeding $12.5 million, “a competition advocate for the procuring activity” must
approve the justification. FAR 6.304(d) requires that agencies include the estimated
dollar value of all options when determining the approval level of a justification.
Modifications PS02 and PS21, totaling $697,048, were for child care center renovations.
Modification PS02 was awarded for $515,151 to establish the base contract and options
for an exterior play surface, millwork, and flooring. Modification PS21 awarded all of the
options for $181,897. Since the sole source award (inclusive of options) was above
$650,000, the justification (which was never completed) needed to be approved by a
competition advocate.

Recommendation 3

The PBS Commissioner should ensure that changes outside the scope of the contract
are handled in accordance with FAR Part 6.

Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendation (See Appendix C).




A120111/P/R/R14001                      5
Conclusion
The audit identified two deficiencies: PBS supplemented Recovery Act projects with
non-Recovery Act funds without notifying Congress and PBS awarded contract
modifications in violation of competition requirements. The PBS Commissioner should:
(1) notify Congress of the use of Minor R&A funds to supplement Recovery Act projects;
(2) perform an internal review to identify Recovery Act projects that were supplemented
with non-Recovery Act funding without Congressional notification; and (3) ensure that
changes outside the scope of the contract are handled in accordance with FAR Part 6.




A120111/P/R/R14001                     6
Appendix A – Purpose, Scope, and Methodology
Purpose

The GSA OIG identified examples of PBS supplementing Recovery Act projects with
non-Recovery Act funds during the Audit of PBS’s Major Construction and
Modernization Projects Funded by the American Recovery and Reinvestment Act of
2009. Two projects contained occurrences of supplemental funding. 6 We initiated a
separate audit focusing on supplemental funding of Recovery Act modernization
projects based on these findings.

Scope

Our audit focused on ten prospectus-level projects located within the Northeast and
Caribbean, Mid-Atlantic, Great Lakes, Rocky Mountain, and Pacific Rim Regions. We
selected our audit sample through data analysis of all Recovery Act Modernization
Projects using the Financial Management Information System and the Federal
Procurement Data System - Next Generation. This analysis identified Recovery Act
projects with non-Recovery Act funded contract modifications. Our audit sample was
judgmentally selected from this population.

Methodology

To accomplish our objectives, we:

    •   Performed fieldwork in the Northeast and Caribbean, Mid-Atlantic, Great Lakes,
        Rocky Mountain, and Pacific Rim Regions;
    •   Interviewed GSA contracting and project staff;
    •   Reviewed and analyzed contract files for the ten projects in our audit sample;
        and
    •   Reviewed applicable guidance and regulations.

We conducted the audit between July 2012 and February 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.



6
 Recovery Act Report – Funding for Modifications 50 UN Plaza Renovation Project, Audit of PBS’s Major
Construction and Modernization Projects Funded by the American Recovery and Reinvestment Act of
2009, Report Number A090172/P/R/R13003, March 27, 2013.
Recovery Act Report – Improper Obligation of Construction Funds for the 1800 F Street Modernization
Project, Audit of PBS’s Major Construction and Modernization Projects Funded by the American Recovery
and Reinvestment Act of 2009, Report Number A090172/P/R/R12006, March 30, 2012.


A120111/P/R/R14001                          A-1
Internal Controls

As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment.         Only those
management controls discussed in the report have been assessed.




A120111/P/R/R14001                 A-2
Appendix B – Additional Finding 1 Modifications
Finding 1 – PBS supplemented Recovery Act projects with non-Recovery Act
funds without notifying Congress.

Bishop Henry Whipple Federal Building

      Modification PS16 for $2,000,000 – This modification was for mechanical,
      electrical, and plumbing (MEP) maintenance. MEP work was not included in the
      original Recovery Act scope of work since the building was to be vacant during
      construction and MEP systems turned off. After award of the Recovery Act
      project a tenant decided to remain in the building during construction, which
      resulted in the need for the MEP systems to be functioning and maintained.

Cesar E. Chavez Memorial Building

      Modification PO01 for $4,575,486 – This modification used Minor R&A funds in
      the amount of $783,931 for the demolition and replacement of the fire alarm
      system. The fire alarm system was included in the original request for offers as
      an option. The option was awarded shortly after the base contract. The fire
      alarm system was part of the original scope as this work was included in the
      initial request, the price was negotiated along with the base contract, and PBS
      intended to perform the work from the start of the project.

      Modification PS45 for $139,923 – This modification used Minor R&A funds for
      exterior site work to meet First Impression Program requirements and
      Interagency Security Committee Standards.         Modification PS04, which
      established the scope of work, was funded by the Recovery Act. The price
      reasonableness determination for modification PS45 stated that the amount of
      $139,923 covers the delta between modification PS04 of $509,000 and the
      Independent Government Estimate of $600,912.

      Modification PS57 for $1,034,000 – This modification used Minor R&A funds for
      tenant build-out that involved the installation of ceiling grid and tile. This
      modification is within scope since it is consistent with the work performed under
      the base contract option 5, which included ceiling replacement.

Chicago Federal Center

      Modification PS46 for $379,651 – This modification was awarded for the
      installation of three guardhouses. Guardhouses were included in the initial
      competition for the Recovery Act project. However, due to budget limitations, the
      GSA project team de-scoped the guardhouses and used the funding for design
      errors and omissions. GSA Asset Management then decided to fund the
      installation of the three guardhouses with Minor R&A funds since the
      guardhouses were a priority.


A120111/P/R/R14001                   B-1
Huntington Federal Building

      Modification PC14 for $2,046,237 – This modification used Minor R&A funds for
      awarding multiple line items, including: utility relocation, pavement repairs, patch
      replacement of ceiling and carpet tiles, heating ventilation and air conditioning
      removal, asbestos abatement, basement build-out, and fire alarm replacement.
      This work is within scope since all of the work except the fire alarm replacement
      was referenced in the Recovery Act project’s contract synopsis or request for
      proposals. Typically, fire and life safety systems are evaluated during project
      planning and incorporated into modernization projects. The need for the fire
      alarm replacement system was identified prior to the Recovery Act project but
      was not included in the Recovery Act project’s scope of work.

John C. Kluczynski Federal Building & U.S. Loop Post Office Facility

      Modification PS51 for $364,495 – This modification was awarded for the fire
      pump scope of work included in the Recovery Act project at the time of award.
      As the project progressed, this work was de-scoped from the Recovery Act
      scope of work in order to fund other changes. GSA Asset Management wanted
      this scope of work included in the project so Minor R&A funds were provided for
      the fire pump replacement. Modification PS51 de-scoped Recovery Act work
      and obligated Minor R&A funds for the same work.

Prince Jonah Kuhio Kalanianaole U.S. Courthouse

      Modification PS12 for $650,000 – This modification was for labor, materials,
      equipment, and supervision to demolish an existing snack shop and rebuild a
      permanent snack shop. According to the contracting officer, the location of the
      current snack shop was to be used as a temporary security checkpoint during the
      construction of the new security pavilion. The plan was to close the snack shop
      during construction. Once the project was under construction, regional personnel
      determined that it was unacceptable to close the snack shop. Minor R&A funds
      were used to permanently move the snack shop. The Findings of Fact for
      Contract Modification for PS12 notes this as an unforeseen/differing condition
      within the scope of work.

Richard H. Poff Federal Building

      Modification PC09 for $51,840 – This project used Minor R&A funding to
      increase the floor load capacity for floors 6 through 13. The contracting officer
      stated the full scope of this work became known after the project was started.
      Minor R&A funding was used so the floor load capacity problem could be
      corrected. The contract synopsis notes, “The proposed capital project will correct
      structural and systems deficiencies in the 34-year old building.” While an




A120111/P/R/R14001                     B-2
      unforeseen site condition at the time of project initiation, this work is within the
      scope of the Recovery Act project.

      Modification PC12 for $200,000 – This modification used Minor R&A funds to
      install upgrades to improve the safety and performance of the elevators. This
      work was not included in the Recovery Act contract awarded November 6, 2009.
      Based on numerous tenant complaints, PBS had an elevator study performed in
      June 2011, which identified the needed repairs. The contract synopsis notes,
      “The proposed capital project will correct structural and systems deficiencies in
      the 34-year old building.”

Nazario Courthouse and Degetau Federal Office Building

      Modification PS02 for $39,428 and modification PO04 for $197,660 (total amount
      $237,088) – These modifications used Minor R&A funds for additional
      Construction Management services for a new courtroom and ancillary spaces in
      the Toledo Courthouse, which was to be used as swing space for the Nazario
      and Degetau project. The new courtroom and ancillary spaces were a line item
      in the Bridging/Design/Build contractor’s base contract. The contracting officer
      stated that “The Toledo Swing Space Courtrooms were necessary to complete
      The Project [Nazario and Degetau].         Without the Toledo Swing Space
      Courtrooms, the Nazario Courthouse could not be renovated, therefore, this was
      one project.” These two modifications were essential to the completion of the
      Recovery Act modernization project.




A120111/P/R/R14001                     B-3
Appendix C – Management Comments




A120111/P/R/R14001    C-1
Appendix D – Report Distribution
PBS Commissioner (P)

PBS Deputy Commissioner (PD)

PBS Chief of Staff (P)

Regional Recovery Executive (2PC, 3PR, 5PN, 8PC, 9P2PT)

National Program Office ARRA Executive (PCB)

Senior Accountable Official for Recovery Act Reports (PCBJ)

Chief of Staff, PBS Office of Construction Programs (PCB)

Regional Administrator (2A, 3A, 5A, 8A, 9A)

Regional Commissioner (3P, 5P, 9P)

Acting Regional Commissioner (2P, 8P)

Regional Counsel (LD2, LD3, LD5, LD8, LD9)

Director, Management and Oversight Division (H1C)

Strategic Program Manager, PBS Program Mgmt. & Support Div. (PCBF)

Analyst, PBS Program Mgmt. & Support Div. (PCBF)

Audit Liaison (BCP)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)

Director, Office of Internal Operations (JI-I)

Executive Assistant, Office of Investigations (JI)




A120111/P/R/R14001                       D-1
